              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
The Department's Audit Resolution
Process




DOE/IG-0639                                 February 2004
THE DEPARTMENT'S AUDIT RESOLUTION PROCESS

TABLE OF
CONTENTS



              Audit Resolution Process

              Details of Finding ........................................................................1

              Recommendations and Comments.............................................5


              Appendices

              1. Objective, Scope, and Methodology ......................................6

              2. Prior Audit Reports.................................................................7

              3. Management Comments........................................................8
AUDIT RESOLUTION PROCESS

Recommendation           The Department of Energy's (Department) current audit resolution
Resolution and Closure   process does not always ensure timely and appropriate closure of audit
Process                  recommendations. In spite of specific guidance, we noted that
                         organizations frequently did not establish or conform to target dates
                         designed to guide the completion of corrective actions. For example,
                         we observed that the Department had not established target dates for
                         implementing corrective actions for 44 percent of the 104 judgmentally
                         sampled Office of Inspector General (OIG) recommendations accepted
                         by management between 1994 and 2002. Additionally, even when
                         target dates were set, organizations routinely exceeded expected closure
                         dates. For example, 57 percent of the recommendations we reviewed
                         exceeded milestone dates, one by as much as seven years.

                         Our review also disclosed a number of examples where the lack of
                         timely or complete resolution of audit recommendations prevented the
                         Department from realizing significant savings or achieving operational
                         efficiencies. As the following examples demonstrate, the lack of timely
                         action in implementing corrective actions can have a significant
                         monetary and operational impact. For instance:

                            •   In our Audit of Fire and Emergency Medical Services Cost
                                Sharing Between the Department of Energy and Los Alamos
                                County (WR-B-96-01, October 2, 1995) we noted that the
                                Department was paying 99 percent of the County's fire and
                                emergency medical costs even though it accounted for only
                                47 percent of all service calls. The OIG estimated that County
                                services could be subsidized by as much as $18.3 million over
                                the life of the contract (December 1992 to November 1997) and
                                recommended that the Department either develop alternate
                                methods for sharing fire and emergency medical services or
                                separate responsibility for these services between the
                                Department and the County. Even though management
                                concurred with the recommendation, seven years have passed
                                since the proposed resolution date and payments continue to be
                                made under the same terms as the above contract. While exact
                                amounts cannot be determined because the Department had not
                                tracked usage, we estimate that subsidies over the six years
                                since the contract was continued – assuming usage remained
                                static – could amount to as much as $22 million.




Page 1                                                                       Details of Finding
         •   During March 1999, our report on Vehicle Fleet Management at
             the Idaho National Engineering and Environmental Laboratory
             (WR-B-99-02) noted that their light vehicle fleet was larger than
             necessary. Based on our recommendation, the Department
             agreed to review fleet use against mileage standards and dispose
             of or reassign vehicles as necessary by September 2000. Actual
             work, however, was not completed until September 2001 and
             the Department did not realize a potential savings of about
             $321,000.

         •   Our report on Groundwater Monitoring Activities at Department
             of Energy Facilities (DOE/IG-0461, February 2000)
             recommended that the Department require field managers to
             evaluate innovative technologies at each site for
             groundwater monitoring. However, target closure dates were
             never established, the effort was not closely monitored, and no
             action was taken on this recommendation because of confusion
             over who had authority to direct field managers to evaluate such
             technologies. As a result, the Department did not realize the
             maximum benefit of implementing innovative groundwater
             monitoring technologies that may have saved an estimated $3.6
             million annually.

         •   With regard to our report on Internet Privacy (DOE/IG-0493,
             February 2001), we noted that the Department established a
             target date but did not take agreed upon corrective action.
             Specifically, our Follow-up Audit on Internet Privacy (OAS-L-
             03-04, December 2002) disclosed that the Department closed
             the recommendation to develop Internet privacy specific
             performance measures in January 2002 when it established a
             target implementation date but never actually developed needed
             performance measures. As we observed in our original report,
             lack of action in this area deprived the Department of a basis to
             measure and demonstrate its performance in this highly
             sensitive area.

         •   We also noted in our Evaluation Report on The Department's
             Unclassified Cyber Security Program-2003 (IG-0620,
             September 2003) that a number of cyber security related audit
             findings had been closed without completion of corrective
             actions. These findings involved the testing of sites' disaster
             recovery and continuity of service plans, which allow
             organizations to ensure continuing operations in the event of a
             major disaster.

Page 2                                                     Details of Finding
                         We also observed that findings and recommendations are often repeated
                         from site to site, or program to program. For example, we routinely
                         identify a number of persistent cyber security related problems during
                         annual reviews such as those required by the Federal Information
                         Security Management Act and the audit of the Department's
                         consolidated financial statements. Problems related to risk
                         management, access and password controls, and contingency and
                         disaster recovery planning have been observed across the Department's
                         organizations and geographic locations since Fiscal Year 2001. Most
                         recently, our evaluation of the Information Technology Management
                         Letter on the Audit of the Department of Energy's Consolidated
                         Financial Statements for Fiscal Year 2003 (DOE/OAS-FS-04-01,
                         November 2003) revealed that 15 of the 17 new findings identified in
                         2003 were either the same or similar to findings identified at other
                         organizations in 2002.


Performance Management   The Department did not fully realize the potential benefit of
and Analyses             recommendations addressing internal control weaknesses because it
                         lacked focused performance measures and did not perform required
                         trend or applicability analyses.

                                                 Performance Measures

                         While we observed that the Department had audit resolution
                         performance measures in place at some point, it subsequently removed
                         them from its performance plan. In response to our July 1999 report on
                         audit follow-up, the Department determined that its existing
                         performance measures were adequate to control the audit resolution
                         process. Subsequent to that determination, however, the Department
                         deleted those measures from its performance plan and had not replaced
                         them. An Office of Management, Budget and Evaluation/Chief
                         Financial Office (CFO) official told us that the measures were deleted
                         because management believed that Office of Management and Budget
                         (OMB) guidance required them to implement measures that were
                         program and outcome rather than process oriented.

                                            Trend and Applicability Analyses

                         The Department also did not perform trend analyses to identify
                         systemic problems or routinely review audit findings for applicability to




Page 3                                                                        Details of Finding
                         others. Despite recommendations in our previous report and
                         requirements of OMB Circular A-50, a CFO official indicated that the
                         Department did not conduct periodic analyses of audit
                         recommendations to identify trends, system-wide problems, and
                         potential solutions. Although management usually took corrective
                         actions on the specific recommendations, the Department did not take
                         advantage of the opportunity to determine whether similar issues exist
                         at other programs, activities, or sites.

                         Even though the Department as a whole did not have such a program,
                         certain segments, such as the Strategic Petroleum Reserve (SPR), had
                         implemented this approach and report that the benefits far outweigh the
                         initial investment. SPR officials reported that such reviews enabled
                         them to determine if similar deficiencies existed at their sites and to
                         quickly take proactive corrective actions. For instance, as part of their
                         process, SPR officials reviewed the OIG's audit on Sandia National
                         Laboratories Procurement Card Program (WR-B-02-03, August 2002)
                         and decided that they would initiate a review of the procurement card
                         program at SPR. That review ultimately demonstrated that
                         improvements were needed in management controls over their
                         procurement cards.


Maximizing Audit Value   The Department was not obtaining the greatest value possible from
                         audit results and recommendations. For example, without adequate
                         performance measures to guide completion of corrective actions,
                         management lacked an important control for ensuring that corrective
                         actions were appropriate and timely. As a consequence, opportunities
                         to improve program performance and health and safety and to reduce
                         the costs of various programs and projects were not realized or delayed
                         because prompt corrective actions were not taken. For instance, in our
                         cited examples alone, timely action may have saved the Department as
                         much as $25.9 million. In our judgment, a lack of trend evaluations or
                         applicability analyses of audit findings contribute to systemic or
                         persistent problems. In particular, the failure to identify systemic cyber
                         security related problems could lead to compromise of the Department's
                         information systems and increase the risk that vital information will be
                         corrupted or compromised.




Page 4                                                                         Details of Finding
RECOMMENDATIONS       We recommend that the Director, Office of Management, Budget and
                      Evaluation/Chief Financial Officer and the Associate Administrator for
                      Management and Administration, National Nuclear Security
                      Administration, in conjunction with Program Secretarial Officers:

                             1. Establish specific performance measures relating to the
                                timeliness and effectiveness of audit resolution and follow-
                                up;

                             2. Identify and periodically report to the Deputy Secretary on
                                the status of open recommendations including identifying
                                recommendations for which (a) target closure dates have not
                                been established, or (b) established target closure dates have
                                not been met;

                             3. Institutionalize the current initiative to identify the underlying
                                causes for significant issues indicated by audits by revising
                                DOE Order 2300.1B to require program officials to review
                                all OIG and Department related General Accounting Office
                                findings and recommendations for applicability to their
                                Departmental element; and,

                             4. Reemphasize the importance of program managers ensuring
                                that open recommendations are closed only after effective
                                implementation of corrective actions.


MANAGEMENT REACTION   The Acting Director, Office of Management, Budget and Evaluation/
                      Acting Chief Financial Officer, and the Associate Administrator for
                      Management and Administration, National Nuclear Security
                      Administration concurred with the report's recommendations and have
                      agreed to implement corrective actions. Consolidated comments have
                      been incorporated verbatim in Appendix 3.




Page 5                                                   Recommendations and Comments
Appendix 1

OBJECTIVE     To determine whether the Department had improved its audit resolution
              process and had taken recommended corrective actions.


SCOPE         We conducted the audit from February 2003 through June 2003, at
              Department of Energy Headquarters and the General Accounting Office
              (GAO) in Washington, DC; the Oak Ridge Operations Office and UT-
              Battelle in Oak Ridge, Tennessee; the Ohio Field Office and the
              Defense Contract Audit Agency (DCAA) in Springdale, Ohio; and
              Fluor Fernald in Fernald, Ohio.


METHODOLOGY   To accomplish the audit objective, we:

              •   Reviewed applicable Federal regulations, Departmental orders, and
                  policies and procedures implemented at Headquarters and sites
                  visited;

              •   Held discussions with Department, GAO, DCAA, and contractor
                  officials regarding their audit follow-up and resolution processes;

              •   Judgmentally selected a total of 70 audits from the OIG, GAO,
                  contractor internal audit, and DCAA to determine whether
                  recommendations were being implemented as asserted by
                  management in their corrective action plans;

              •   Reviewed Departmental Audit Resolution and Tracking System
                  (DARTS) data to determine status of selected OIG and GAO audit
                  recommendations; and,

              •   Reviewed performance related information to determine compliance
                  with the Government Performance and Results Act of 1993.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because
              our review was limited, it would not necessarily have disclosed all
              deficiencies that may have existed at the time of our audit. We relied
              on computer processed data in DARTS and conducted limited tests of
              data necessary to satisfy our audit objective.

              The exit conference was held with Departmental officials on
              February 3, 2004.

Page 6                                         Objective, Scope, and Methodology
Appendix 2
                                      PRIOR AUDIT REPORTS


    •    The U.S. Department of Energy's Audit Follow-Up Process (DOE/IG-0447, July 7, 1999).
         The audit found that the Department's audit follow-up system did not verify that
         implemented actions addressed the underlying control weakness or share information on
         potential weaknesses across the Departmental complex. Without a more planned and
         proactive approach to audit follow-up, the Department cannot ensure that agreed-upon
         actions will be implemented.

    •    Follow-Up Audit on Internet Privacy (OAS-L-03-04, December 5, 2002). Our follow-up
         review did not reveal any persistent cookies on the 20 randomly selected Department web
         pages that we tested. These test results are consistent with the Department's actions to
         implement our earlier recommendations. While the Department had made significant
         progress toward implementing our recommendations, we found that it has not yet adopted
         meaningful Internet privacy-specific performance measures. According to an official in the
         Office of the Chief Information Officer, they were considering various alternatives but had
         not yet determined a suitable method for measuring performance specific to Internet
         privacy.




Page 7                                                                                      Prior Reports
Appendix 3




Page 8       Management Comments
Appendix 3 (continued)




Page 9                   Management Comments
Appendix 3 (continued)




Page 10                  Management Comments
                                                                              IG Report No.: DOE/IG-0639

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
